Report No. D-2010-055                         April 29, 2010




     Medical/Surgical Prime Vendor Contract Supporting
          Coalition Forces in Iraq and Afghanistan
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACPOP                 Alternate Commercial Product Ordering Program
ASD(HA)               Assistant Secretary of Defense for Health Affairs
DAPA                  Distribution and Pricing Agreements
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
MSPV                  Medical/Surgical Prime Vendor
USAMMA                U.S. Army Medical Materiel Agency
USAMMCE               U.S. Army Medical Materiel Center Europe
USAMMC-SWA            U.S. Army Medical Materiel Center - Southwest Asia
USCENTCOM             U.S. Central Command
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 





                                                                            APR 29     D)



MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Medical/Surgical Prime Vendor Contract Supporting Coalition Forces in Iraq
         and Afghanistan (Report No. 0-20 I 0-055)


We are providing this report for your information and use. We performed this audit in
response to the requirements in Public Law 110-181 , the FY 2008 National Defense
Authorization Act, section 842, which requires the DoD Inspector General to audit DOD
logistics contracts supporting coalition forces in Iraq and Afghanistan.

We considered management comments on a draft of this repOlt when preparing the final
report. The Commander, Defense Supply Center Philadelphia, comments conformed to
the requirements of DOD Directive 7650.3; therefore, we do not need additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866.




                                             Alice F. Carey
                                             Acting Assistant Inspector General
                                             Readiness, Operations, and Support




cc: Commander, Defense Supply Center Philadelphi a
Report No. D-2010-055 (Project No. D2008-D000LF-0267.000)                       April 29, 2010


               Results in Brief: Medical/Surgical Prime
               Vendor Contract Supporting Coalition Forces
               in Iraq and Afghanistan
                                                        Supply Center Philadelphia. As a result, the
What We Did                                             primary ordering facility for medical/surgical
Our objectives were to determine whether terms          supplies used in Iraq and Afghanistan did not
and conditions for the Medical/Surgical Prime           obtain the benefit of an estimated $65,000 of
Vendor contract were adequately developed and           overcharge credits for FY 2008. In addition,
the administration of the contract and delivery         other ordering organizations in the Global North
orders was effective. The primary ordering              Region and the other regions may not be
facility for medical/surgical supplies used in          obtaining due overcharge credits.
Iraq and Afghanistan ordered about $90 million
in supplies in FY 2008 from the prime vendor.           What We Recommend
The contract terms and conditions reviewed in           We recommend that the Commander, Defense
this report include the methodology used to             Supply Center Philadelphia, determine the status
compute rates that recoup the cost of the               of FY 2008 and FY 2009 overcharge credits and
Medical/Surgical Prime Vendor program and               ensure the overcharge credits are applied to
the distribution process used to ship the               customers’ accounts, develop procedures to
supplies. In addition, this report focuses on the       ensure the prime vendor notifies customers of
monitoring of contractor performance portion of         credits and that the credits are applied to
contract administration.                                customers’ accounts, and provide estimated
                                                        milestones for completion of recommendations.
What We Found
Terms and conditions for the Medical/Surgical           Management Comments and
Prime Vendor contract were adequately                   Our Response
developed to meet users’ needs. We reviewed             The Commander, Defense Supply Center
selected aspects of the contract based on               Philadelphia, agreed with the recommendations.
concerns raised by the primary customers and            Management comments were responsive.
stakeholders. We found the terms and                    Please see the recommendations table on the
conditions did not need improvement. In                 back of this page.
addition, Defense Supply Center Philadelphia
solicits input from primary customers and
stakeholders within the DOD logistics support
community to ensure key requirements are
incorporated into the contract.

Controls over monitoring the performance of the
prime vendor contractor for the Global North
Region were generally adequate. However,
procedures to monitor credits to ensure DOD
obtains the benefit of credits need improvement.
The prime vendor did not apply FY 2008
overcharge credits resulting from price
verification analyses performed by Defense

                                                    i
Report No. D-2010-055 (Project No. D2008-D000LF-0267.000)              April 29, 2010

Recommendations Table

Management                  Recommendations                 No Additional Comments
                            Requiring Comment               Required
Commander, Defense Supply                                   1, 2, and 3
Center Philadelphia




                                         ii
Table of Contents

Introduction                                                    1


      Objectives                                                1

      Background                                                1

      Review of Internal Controls                               3


Finding. Medical/Surgical Prime Vendor Contract                 4


      Recommendations, Management Comments, and Our Response    9


Appendix

      Scope and Methodology                                    11 

             Prior Coverage                                    12 


Management Comments

      Defense Supply Center Philadelphia                       13 

Introduction
Objectives
The objectives of the audit were to determine whether terms and conditions for the
Medical/Surgical Prime Vendor (MSPV) contract were adequately developed and the
administration of the contract and delivery orders was effective. Also, this report focuses
on the monitoring of contractor performance portion of contract administration. See
Appendix A for the scope and methodology and prior coverage related to this report.

We held discussions with activities throughout DOD involved in planning for medical
logistics to discuss any concerns that they may have with the terms and conditions of the
contract. Specifically, we met with personnel from the offices of the Assistant Secretary
of Defense for Health Affairs (ASD[HA]), Army Surgeon General, Army Medical
Command, U.S. Army Medical Materiel Agency (USAMMA), U.S. Army Medical
Materiel Center Europe (USAMMCE), the 6th Medical Logistics Management Center,
Navy Bureau of Medicine and Surgery, the Naval Medical Logistics Command, the
Naval Supply Systems Command, the Air Force Surgeon General, and the Air Force
Medical Logistics Office. Overall, personnel were pleased with most of the terms and
conditions of the contract. However, the rates used to recover costs of the MSPV
program were often cited as an area of concern. Accordingly, we decided to focus on the
methodology used by the Defense Logistics Agency (DLA) and Defense Supply Center
Philadelphia (DSCP) to compute system recovery rates that recoup the costs of the
MSPV program. We also decided to review the distribution process used to send
medical/surgical supplies to requesting activities in Iraq and Afghanistan.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits … to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.”

Background
DOD Directive 5101.09, “DoD Executive Agent for Medical Materiel,” August 23, 2004,
establishes DLA as the Executive Agent for operating the Class VIII (medical materiel)
supply chain. DLA delegated the day-to-day responsibility to execute the Class VIII
supply chain to DSCP. One mission of DSCP is to ensure that the warfighter has all
Class VIII medical surge and sustainment materials needed in support of military or
humanitarian operations.




                                              1

DSCP provides medical supplies through the MSPV program to DOD military treatment
facilities worldwide. The MSPV program consists of three TRICARE global regions
(North, South, and West) to provide routine ordering capability throughout the world.
One purpose of the MSPV program is to distribute medical supplies on a next-day
delivery basis. The MSPV contract for the Global North Region includes support to the
military in Iraq and Afghanistan within the U.S. Central Command (USCENTCOM) area
of responsibility.

U.S. Army Medical Materiel Center - Southwest Asia (USAMMC-SWA) in Doha, Qatar,
is the Theater Lead Agent for Medical Materiel in the USCENTCOM area of
responsibility. As the lead agent, USAMMC-SWA is responsible for executing
Class VIII storage and distribution. Customers in Iraq and Afghanistan place an order for
medical supplies with USAMMC-SWA. If the item is not in stock, USAMMC-SWA
orders the supplies from USAMMCE, located in Pirmasens, Germany. If USAMMCE
does not have the item, an order is placed using the MSPV contract. The prime vendor
fills the order, packages the items for shipment, and delivers the order to the prime
vendor distribution center dock for pickup by a Government-supplied carrier for
shipping. At this point, the shipment becomes the responsibility of the Government, and
the requested item is shipped to USAMMCE. USAMMCE then either replenishes its
stock to replace supplies distributed or forwards the items to USAMMC-SWA for
delivery to the unit via Military Air Transportation.

Table 1 shows the total FY 2008 cost of the Global North Region contract, cost of
USAMMCE orders that include items ordered for USAMMC-SWA, and direct shipments
into Iraq and Afghanistan. Our review focused on USAMMCE orders because of its role
in supporting USAMMC-SWA.

          Table 1. FY 2008 Cost of Global North Region Medical Supplies
           Area                        Cost               Percentage of Cost
Global North Region                $294,286,032                  100.00
USAMMCE                              89,556,341                   30.43
Iraq and Afghanistan                    145,475                    0.05

Prices for supplies available through the MSPV program are established under DSCP
Distribution and Pricing Agreements (DAPAs). DSCP negotiates DAPAs with
manufacturers or distributors of medical surgical supplies, providing uniform supply
pricing for all DSCP prime vendor customers. DAPA catalogs are updated monthly with
new products and price changes effective the first day of the following month. In
addition, the Alternate Commercial Product Ordering Program (ACPOP) is designed to
give customers access to items not covered by a DAPA.




                                            2

The annual cost of medical and surgical supplies provided to USAMMCE under the
MSPV contract, including supplies destined for USAMMC-SWA, is shown in Table 2.

                   Table 2. USAMMCE Medical/Surgical Supplies
        Fiscal Year            Delivered Quantity               Cost
           2006                       923,732               $ 41,922,684
           2007                     2,528,608                107,206,873
           2008                     1,833,797                 89,556,341


Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. Although internal controls
were generally adequate, we identified an internal control weakness for Defense Supply
Center Philadelphia. DSCP did not monitor the prime vendor’s procedures to quantify
overcharge credits and notify ordering customers of them, instead relying on customers to
identify when the prime vendor was not complying with the requirements of the contract.
Implementing Recommendation 1 should improve internal controls of overcharge credits
to ensure the prime vendor contractor complies with contract requirements regarding
overcharge credits and DOD can obtain the benefit of credits. A copy of the report will
be provided to the senior officials responsible for internal controls, specifically the Senior
Procurement Executive at DLA Headquarters and the Head of Contracting Activity at
DSCP.




                                              3

Finding. Medical/Surgical Prime
Vendor Contract
Terms and conditions for the Medical/Surgical Prime Vendor contract were adequately
developed to meet users’ needs. In addition, controls over monitoring the performance of
the prime vendor contractor for the Global North Region were generally adequate.
However, procedures to monitor credits to ensure DOD obtains the benefit of credits need
improvement. Specifically, the prime vendor did not apply FY 2008 overcharge credits
to the USAMMCE account. As a result, USAMMCE, the primary ordering facility for
medical/surgical supplies used in Iraq and Afghanistan, did not obtain the benefit on an
estimated $65,000 of overcharge credits for FY 2008. In addition, other ordering
organizations in the Global North Region and the other regions may not be obtaining due
overcharge credits. Improving controls over monitoring the prime vendor’s performance
will ensure overcharge credits are quantified and the customers are notified of available
credits.

Contract Terms and Conditions
We did not identify terms and conditions in the MSPV contract that needed improvement.
We solicited comments from key stakeholders to identify areas in the current MSPV
contract that could be improved. Considering the comments, we focused on the system
recovery rate and the supply distribution process. We found that DSCP solicits input
from primary customers and stakeholders within the DOD logistics support community,
to ensure key requirements are incorporated into the contract.

System Recovery Rate
The methodology used to formulate the cost recovery rate, a portion of the system
recovery rate, complied with DLA guidance and the computations supporting the rate
were accurate. The system recovery rate is applied to purchases made by activities in
Iraq and Afghanistan to recover costs that DLA and DSCP incur while buying materiel
and selling it to the customer. The system recovery rate is the cumulative total of the
MSPV program cost recovery rate for Outside Continental United States and materiel-
related costs that are charged to the customer. The cost recovery rate portion of the
system recovery rate includes costs such as labor costs, depreciation, surcharges, and
sustainment costs of materiel that DSCP incurs while buying materiel and selling it to the
customer. Materiel-related costs are any costs incurred for an item before it can be sold,
such as first destination transportation and assembly-related costs. DSCP is responsible
for developing and annually reassessing the cost recovery rate based on historical budget
data from the previous year. The FY 2009 MSPV Outside Continental United States cost
recovery rate portion of the system recovery rate is 11.5 percent and the materiel-related
costs rate is 17.4 percent. The total combined system recovery rate charged to ordering
activities in Iraq and Afghanistan was 28.9 percent.




                                            4

Supply Distribution Process
We planned to review different options that the prime vendor and DSCP could use to
deliver medical surgical supplies to their customers in Iraq and Afghanistan. However,
we discovered that the Commanding General, U.S. Army Medical Research and Materiel
Command, was sponsoring a RAND Corporation study of the Class VIII medical
supplies distribution structure for all supplies being distributed into Iraq and Afghanistan.
Based on the plans for the study, we decided not to review the contract delivery process
to avoid duplication of effort.

The objective of the RAND Corporation study was to “Evaluate whether changes in the
USCENTCOM medical supply distribution structure would lead to decreased costs
and/or improved performance of the theater health service support system.” The study
will directly review options for distributing medical logistics supplies through different
methods than those currently used. The study will determine and compare distribution
times and costs for sending medical supplies from each of the distribution nodes (prime
vendor, USAMMCE, and USAMMC-SWA) to the USCENTCOM area of responsibility.
The study will also determine and compare the costs of using the current medical
logistics structure and potential costs to use the non-medical logistics structure for
medical supplies. The study report is expected to be released in April 2010.

Coordination of Terms and Conditions
DSCP solicits input from multiple agencies and activities during the contract planning
phases to ensure incorporation of valid requirements in the contract. DSCP coordinated
with personnel from the Offices of the Surgeon General and medical logistics personnel
within the Office of the ASD(HA) and the Military Departments. For example, based on
minutes of meetings for the next generation contracts, coordination meetings were held
with representatives from U.S. Army Medical Command, the Air Force Medical
Operations Agency, the Defense Medical Logistics Standard Support Program Office, the
Joint Medical Logistics Functional Development Center, and the Naval Medical Logistics
Command. DSCP coordinates with these activities for each new generation of the MSPV
contract. During these planning phases, DSCP reviews and incorporates any additional
needs the activities may have into the contract as well as removing any terms and
conditions that should no longer apply. By performing this extensive coordination,
DSCP helps to ensure that the customers’ and stakeholders’ needs for the contract are
met.

Prime Vendor Performance
Controls over monitoring the performance of the prime vendor contractor for the Global
North Region were generally adequate. However, procedures to monitor credits to ensure
DOD obtains the benefit of the credits need improvement. Specifically, the prime vendor
did not apply FY 2008 overcharge credits resulting from price verification analyses. This
occurred because DSCP did not monitor the prime vendor’s procedures to quantify and
notify ordering customers of overcharge credits. As a result, USAMMCE, the primary
ordering facility for medical/surgical supplies used in Iraq and Afghanistan, was not




                                              5

aware of an estimated $65,000 in overcharge credits for FY 2008 and therefore did not
use the credits.

Surveillance Procedures
DSCP ensures prime vendor compliance with contract requirements through multiple
processes. Annual assessments review selected aspects of the prime vendor performance.
Quarterly compliance audits determine whether the pricing and non-pricing performance
metrics meet established levels. In addition, the contract management plan monitors
three major metrics of contract performance: customer satisfaction, fill rate, and pricing
accuracy. In FY 2009, the DLA Center for Excellence and Pricing began doing the
pricing portion of the annual assessments and compliance audits and DSCP continued
doing the non-pricing annual assessment and compliance audits.

Annual Assessments and Compliance Audits
The annual assessments and quarterly compliance audits performed by DSCP reported
issues concerning the ACPOP pricing instrument for products used by the prime vendor.
The ACPOP program was conceived to reduce local purchase actions by customers and
provide greater visibility of acquisitions made by customers. ACPOP was intended to be
the pricing instrument of last resort.

The FY 2008 annual assessment identified where customers inappropriately used the
ACPOP. The DSCP Compliance Division’s preliminary research indicated
approximately 46 percent of procurements that fall into ACPOP are the result of
customer failure to identify the correct DAPA information when placing an order. The
compliance audits reported that the ACPOP action plan, which was designed to move
items onto DAPA pricing agreements, has had a positive impact on decreasing the
quantity of items ordered through ACPOP and progress has been made between each
compliance audit.

DSCP plans for resolving the ACPOP problems by doing away with ACPOP pricing in
the next generation, 2010, of the MSPV contracts. DSCP sent letters to the companies
that fill the majority of the ACPOP orders informing them that the ACPOP pricing will
not be included in the next generation of contracts and providing information on how to
enter into a DAPA agreement.

Contract Management Plan
The contract management plan for the MSPV program is an effective mechanism for
monitoring the key performance requirements of the MSPV contract. The plan,
established June 4, 2008, uses a systematic approach to monitor key performance criteria
by focusing on customer satisfaction, fill rate, and pricing accuracy.

       Customer Satisfaction
Customers appear generally satisfied with the service provided by the prime vendor.
Interviews with USAMMCE personnel indicated they had no complaints with the level of
service provided by the prime vendor. The number of customer service issues is minimal
compared with the volume of orders. In addition, aged service ticket reviews do not


                                            6

indicate systemic problems with customer satisfaction. Although USCENTCOM
Surgeon General personnel stated they did not have direct contact with the prime vendor,
they are generally satisfied with the medical supply support they receive.

DSCP monitors customer satisfaction by informal customer contacts as well as formal
surveys. DSCP also has monthly teleconferences with USAMMCE to monitor the
resolution of outstanding issues. Monthly meetings held with the DSCP Commander
focus on the top unfilled orders. The Customer Facing Division responds to and tracks
the status of customer issues, using the Dashboard System as a focus tool to capture
customer service issues.

The number of customer service issues for USAMMCE was minimal compared with the
total line items ordered by USAMMCE in FY 2008. Of the 329 customer service tickets
in FY 2008 for the Global North Region contract, USAMMCE submitted 151. A
customer service ticket may involve one or more line items. USAMMCE ordered 64,836
line items in FY 2008. Based on the number of line items ordered, we consider the
151 customer service tickets minimal. The 151 customer service tickets for USAMMCE
were divided into 22 categories, with customers wanting to know the status of their order
representing the largest category with 74 issues.

DSCP acknowledges that delivery timeliness could be improved. DSCP holds monthly
Aged Service Ticket Review meetings that include a selection of the oldest three
customer service tickets from the Customer Facing Division. As of November 2008,
17 aged service tickets had been reviewed by DSCP and categorized as shown below:

   •   6 Delivery status update,
   •   2 Expedite order,
   •   1 Award delayed,
   •   2 Vendor price change and modification needed,
   •   1 No vendor contract,
   •   1 Medical supplies needed for deployment,
   •   2 Ticket closed, and
   •   2 Canceled by buyer - Contract had minimum order quantity.

The review identified a variety of reasons for the customer service tickets. Based on the
variety, the service tickets did not identify a systemic customer satisfaction problem.

       Fill Rate
The prime vendor met the FY 2008 order fill rate required by the contract. Customers
provide updated usage data each month, which is a listing of supplies and quantities the
customers expect to use that month. The fill rate measures the prime vendor’s ability to
fulfill the expected customer’s usage data. The contract states that 90 percent is the
minimum monthly fill rate requirement for ordering facilities. Because the fill rate is
based in part on estimates provided by ordering facilities, a lower rate could result from
factors beyond the prime vendor control. For example, customers who did not keep
current usage data information or failed to acknowledge receipt of shipment could reduce


                                            7

the rate. The rate is an indicator of conditions to explore and resolve. Our review of
FY 2008 fill rate reports for the Global North Region prime vendor showed that the
annual fill rate was 91.6 percent.

       Pricing Accuracy
DSCP evaluates the prices charged by the prime vendor to ensure compliance with
pricing policies identified in the contract. The Global North Region contract states that
the prime vendor shall provide all medical/surgical products as a distributor under a
designated contract. The types of designated contracts include ACPOP and DAPA.

To determine whether prices charged for ACPOP items are fair and reasonable, DSCP
personnel stated they review monthly the top 75 percent of ACPOP sales, and sample
from the remaining 25 percent. To accomplish this review, DSCP personnel perform
research, call manufacturers, and compare prices with distributors. In addition, prices are
compared with DAPA, the DOD Master Catalog, the GSA Web site, and Federal Supply
Schedule prices. DSCP estimates about 70 percent of the items reviewed monthly have
fair and reasonable prices and the remaining 30 percent are sent back to the prime vendor
for price renegotiation.

Items ordered through the DAPA process are reviewed each month when the prime
vendor submits customers’ consumption data into the Customer Demand Management
Information Application. This program includes a tool that compares the consumption
data invoice price with the price in effect on the date the order was placed. Line items
with prices higher than DAPA prices are identified in a potential overcharge report.
DSCP provides this report to the prime vendor for comment. The prime vendor either
agrees the potential overcharge is valid or disputes the potential overcharge and provides
comments to DSCP. After DSCP and the prime vendor agree to the potential
overcharges, the prime vendor distribution center that originally filled the order calculates
the amount of the credit. The prime vendor is responsible for notifying the customer of
the overcharge credit and posting the credit to the customer’s account.

Overcharge Credits
The prime vendor did not apply FY 2008 overcharge credits to the USAMMCE account.
This occurred because DSCP did not have procedures in place to track or follow up on
the processing of overcharge credits. As discussed above, DSCP pricing accuracy proce­
dures end with the agreement of potential overcharges. The calculation, application, and
use of credits after this point were left up to the prime vendor and the customers.

Neither DSCP nor the prime vendor could provide the FY 2008 calculated overcharge
credits for USAMMCE. We reviewed potential pricing overcharge reports and
USAMMCE credit reports issued by the prime vendor, but could not determine whether
the potential credits were processed. In addition, discussions with USAMMCE personnel
showed they were not aware of any credits associated with the potential overcharge
credits. We presented a list of potential credits to the prime vendor to track down the
status. Based on its review, the prime vendor acknowledged that it appears the credits
were not posted. The prime vendor also stated that it was working to correct the problem.


                                             8

To estimate the amount of the credits, we obtained the monthly potential overcharge
reports for FY 2008 that contained overcharge items agreed upon by DSCP and the prime
vendor (without computed credit amounts). We calculated overcharge amounts for each
credit, an estimated $457,000 for the Global North Region. We extracted 460 line items
associated with USAMMCE overcharges and estimate USAMMCE did not receive about
$65,000 in overcharge credits for FY 2008. Our review was limited to one customer in
one region, but without controls in place, there is the risk that other customers and other
regions may not be receiving the benefits of overcharge credits.

Recommendations, Management Comments, and Our
Response
We recommend that the Commander, Defense Supply Center Philadelphia:

       1. Determine the status of FY 2008 and FY 2009 overcharge credits and
       ensure the credits are applied to customers’ accounts.


Defense Supply Center Philadelphia Comments
The Commander, Defense Supply Center Philadelphia, agreed with Recommendation 1
and stated that Defense Supply Center Philadelphia personnel will research and
determine the status of all FY 2008 and FY 2009 overcharge credits. They will work
directly with the prime vendor and customers to ensure that all overcharge credits are
applied to the appropriate customers’ accounts.

       2. Develop procedures to ensure the prime vendor notifies customers of
       credits and that the credits are applied to customers’ accounts.


Defense Supply Center Philadelphia Comments
The Commander, Defense Supply Center Philadelphia, agreed with Recommendation 2
and stated that Defense Supply Center Philadelphia personnel will develop and
implement procedures to ensure the prime vendor notifies customers of credits and that
credits are applied to customers’ accounts.

       3. Provide estimated milestones for completion of Recommendations 1 and 2.


Defense Supply Center Philadelphia Comments
The Commander, Defense Supply Center Philadelphia, agreed with Recommendation 3
and provided an estimated completion date of April 30, 2010, to accomplish the actions
required for Recommendations 1 and 2.




                                             9

Our Response
We consider the Commander’s comments to be responsive. No further comments are
required.




                                       10 

Appendix. Scope and Methodology
We conducted this performance audit from September 2008 through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
This final report was delayed approximately one month because we granted DSCP’s
request to extend the due date to comment on the draft report due to their involvement in
the Haiti relief effort. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We interviewed personnel at DLA and DSCP to identify policies and procedures relevant
to the Medical/Surgical Prime Vendor program. We determined the procurement and
payment process for associated prime vendor contract. At DSCP we obtained
information on customer satisfaction, consumption data, potential overcharges, price
verification, fill rate reporting, and compliance with contract requirements. We also
spoke with personnel from the Global North Region prime vendor to discuss the posting
of credits resulting from overcharges. During the audit the Global North Region prime
vendor was Owens & Minor Inc., contract number SP0200-05-D-7000.

We define prime vendor contract terms and conditions as requirements on how the
contractor provides the medical/surgical supplies, such as shipping and billing terms. We
met with personnel from the offices of the Assistant Secretary of Defense for Health
Affairs (ASD[HA]), Army Surgeon General, Army Medical Command, U.S. Army
Medical Materiel Agency (USAMMA), U.S. Army Medical Materiel Center Europe
(USAMMCE), the 6th Medical Logistics Management Center, Navy Bureau of Medicine
and Surgery, the Naval Medical Logistics Command, the Naval Supply Systems
Command, the Air Force Surgeon General, and the Air Force Medical Logistics Office to
identify stakeholder concerns with the prime vendor process of obtaining Class VIII
supplies, including the process to distribute supplies to Iraq and Afghanistan.

We reviewed public laws and DOD directives and regulations to identify requirements
pertaining to pricing, logistics, purchasing, delivery, oversight, and terms and conditions
of the MSPV program. Specifically, we reviewed Public Law 110-181, section 842,
“Investigation of Waste, Fraud, and Abuse in Wartime Contracts and Contracting
Processes in Iraq and Afghanistan,” January 28, 2008; DOD Directive 5105.22, “Defense
Logistics Agency,” May 17, 2006; DOD Directive 5101.9, “DOD Executive Agent for
Medical Materiel,” August 23, 2004; Federal Acquisition Regulation, Subpart 4.8,
“Government Contract Files”; section 2533a, title 10, United States Code, “Requirement
to Buy Certain Articles from American Sources”; Army Regulation 40-61, “Medical
Services: Medical Logistics Policies,” January 28, 2005; Navy Policy Letter 4200,
“Committed Use Requirements Contracts,” January 4, 1999; and Air Force
Instruction 41-209, “Health Services: Medical Logistics Support,” April 10, 2007.

We reviewed the Global North Region prime vendor contract and the contract
management plan to identify controls DSCP used to monitor prime vendor performance.


                                            11


We evaluated the controls by reviewing procedures and performing selected tests of the
prime vendor compliance with contract requirements regarding pricing overcharges. Our
review used data for the Global North Region for FY 2006 through FY 2008 and price
verification summary reports for FY 2008. We reviewed each monthly report using the
guidelines provided by DSCP to determine the accuracy of the reports.

We reviewed 12 months of Global North Region potential overcharge data for FY 2008
and determined the potential overcharges for USAMMCE. Additionally, we obtained
FY 2008 USAMMCE credits from the prime vendor and compared 5 months of potential
overcharge data to credits. We also reviewed FY 2008 Fill Rate Reports for trends or
patterns. We met with DSCP personnel to discuss customer satisfaction with the MSPV
program. We compared the customer service issues filed by USAMMCE with its
consumption data to determine whether the relative magnitude of customer complaints
was significant.

Use of Computer-Processed Data
We used computer-processed data from: Customer Demand Management Information
Application 2, DASHboard System, and the Electronic Business System. These systems
are used by DSCP to manage the MSPV program. The volume of transactions included
in these systems precluded a formal reliability assessment of computer-processed data.
However, we used summary reports generated by the systems to identify consumption
data, fill rates, customer complaints, potential overcharges, and price verification.
Comparing the summary reports with information obtained from USAMMCE and the
prime vendor was adequate to determine that credits were not quantified and posted. We
did not use the data produced by these systems to make any statistical projections or
perform evaluations at the transaction level. We do not believe that not evaluating the
reliability of the computer-processed data materially affected the results of our review.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued two reports
discussing the Medical/Surgical Prime Vendor contracts. Unrestricted GAO reports can
be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. 07-396R, “Defense Management: DLA Has Made Progress in
Improving Prime Vendor Program, but Has Not Yet Completed All Corrective Actions,”
February 26, 2007

GAO Report No. 06-739R, “Defense Management: Attention is Needed to Improve
Oversight of DLA Prime Vendor Program,” June 19, 2006




                                           12


Defense Supply Center Philadelphia Comments






                                                 DEFBNSB l.OGlSTlCS AGENCY
                                               DEFENSE SUPPLY CENTER PHIL-\J)Jo:I.PIIIA
                                                       700 ROBBINS AYENUE
                                              PJIIUDELPHlA, l'ENNSY),vANlA 19111·5002


    IN RI!PI.Y
       ItI!FERTO    0                                                                                    JAN 2 1 2010

                    MEMORANDUM FOR DEFENSE LOGISTICS AGE NCY , AnN. J-72

                    SUBJECT: DOD IG Draft Report on Medical/Surgical P ~i me Vendor Contracts Supporting
                    Coalition Forces in Iraq and Afghanistan (ProJect No. D2008·0000LF.0267.000)


                          Reference is made to DLA·DA e-mail dated January 4, 2010, subject as above. We
                   have completed our review of the DOD IG Report on MedicaliSurgicat Prime Vendor Contracts
                   Supporting Coalition Forces in Iraq and Afghanistan and our response to the recommendations
                   are as follows:

                              a. Recommendation 1; Determine the status of FY 2008 and FY 2009 o....ercharge
                   credits and ensure the credits are applied to customers' accounts.

                                Response: Concur. DSCP will research and determine the status of all FY 2008
                   and FY 2009 o ....ercharge credI ts and work directly with the prime .... endor and the applicab!e
                                               Click to add JPEG file
                   customers to ensure thai aU overcharge credits were app lied 10 the appropriate customers'
                   accounts.

                             b. Recommendation 2: De ....elop procedures to ensure the prime vendor notifies
                   customers of credits and that the credits are applied to customers' accounts.

                                Response: Concur. DSCP win develop and implement procedures to ensure the
                   prime vendor notifies customers of, and applies. due credits to their accounts .

                          c. Recommendation 3: Provide estimated milestones for completion of
                   Recommendations 1 & 2.

                                  Response: Estimated compleUon date for action on both recommendations IS no
                   later than April 30. 2010.

                          Point of COniact for this aClion is;• • • • • • • Internal Audit.                   • DSN
               • • • •ker e·mail:                       2ldla.mil.



                                                               ~~ eR~
                                                                SCO TT D. CH AMBERS
                                                                Bligadier General, USAF
                                                                Commander




                                                                                  13
